Office of Inspector General




Semiannual Report to the Congress
April 1, 2004 – September 30, 2004

          www.oig.lsc.gov
                                                      April 1, 2004 – September 30, 2004



                            TO THE BOARD OF DIRECTORS
                  OF THE LEGAL SERVICES CORPORATION (LSC)
                                       AND
                            THE UNITED STATES CONGRESS


                  A MESSAGE FROM THE INSPECTOR GENERAL

      Sixteen years ago, Congress created the position of Inspector General for
the Legal Services Corporation. There are now fifty-seven offices of inspectors
general who carry out the statutory responsibilities set forth in the Inspector
General Act to ensure the integrity, efficiency and effectiveness of the programs
and operations of federally-funded agencies, including the Legal Services
Corporation. I am proud that the Legal Services Corporation Board of Directors
has selected me as their Inspector General effective September 1, 2004.


      As I start my duties, I look forward to working for the Legal Services
Corporation, an organization that has been at the forefront of providing equal
access to justice for thirty years.    The Legal Services Corporation currently
provides funding of $323 million to more than 140 legal aid grantees
throughout the United States to provide civil legal assistance in areas such as
housing, consumer issues, family law, domestic violence, employment and
government benefits to low-income families. The challenge to the Corporation
is to do more with fewer real dollars.     The goal of my office will be to add
greater value to the Corporation, Congress, taxpayers and low-income persons
in need of legal services.       In addition to carrying out our Congressional
responsibility to oversee compliance with restrictions placed on grantees to
refrain from certain activities, I will begin reviewing the internal operations of
the Corporation so that the Corporation will be effective and efficient in
carrying out its mission.


      I am committed to providing timely, accurate and fact-based audits,
inspections, evaluations, and investigations to help the Legal Services
Corporation assure equal access to justice. I look forward to working with the
Board of Directors, President Helaine Barnett, and Legal Services Corporation
management and staff as they carry out the mandates of Congress. I also look
                                                         April 1, 2004 – September 30, 2004



forward to working with the Congress, Legal Services Corporation grantees and
the other stakeholders in the legal aid community.


      This    Semiannual   Report   sets   forth   the   significant    activities    and
accomplishments of this office from April 1, 2004 through September 30,
2004. It details our efforts to assure compliance with the restrictions on the
use of Legal Services Corporation funds by grantees. It also looks at our efforts
to improve the effectiveness and efficiency of the Corporation.


      In this reporting period, the Office of Inspector General issued seven
audit reports and other products.


      I am very appreciative of the support and enthusiasm that I have received
from the Legal Services Corporation during my first month as Inspector General.
I am confident that we can achieve our common goal to ensure that the Legal
Services Corporation continues to be in the vanguard of ensuring equal access
to justice.


                                      Sincerely,



                                      Kirt West
                                      September 30, 2004
                                                                    April 1, 2004 – September 30, 2004



                           TABLE OF CONTENTS




I N T R O D U C T I O N ............................................................................... 1
Corporate Structure................................................................................ 1
Grant-Making Activities ......................................................................... 1


A UDITS ................................................................................................. 2
E V A L U A T I O N P R O J E C T .................................................................. 6


I N V E S T I G A T I V E A C T I V I T I E S ....................................................... 12

LEGAL REVIEW ................................................................................... 13

TABLE I - Audit Reports Issued with Questioned Costs for the Period
Ending September 30, 2004 ................................................................. 14


TABLE II - Audit Reports Issued with Funds to be Put to Better Use for the
Period Ending September 30, 2004 ...................................................... 15


TABLE III - Index to Reporting Requirements of the
Inspector General ................................................................................. 16
                       INTRODUCTION


Corporate Structure


      The Board of Directors of the Legal Services Corporation (LSC
or the Corporation) is composed of 11 members appointed by the
President of the United States with the advice and consent of the
Senate.    The Board sets general policy and oversees the
management of the Corporation.        The Inspector General reports
directly to the Board in its capacity as head of the entity. The Board
also appoints the President of the Corporation, who serves as the
principal management official of the Corporation.

Grant-Making Activities


      The Corporation is authorized by Congress to make grants
and contracts to support the provision of civil legal assistance to
clients who meet eligibility requirements. The Corporation makes
grants to entities that, in turn, provide legal assistance to indigent
persons throughout the United States, Puerto Rico, the U.S. Virgin
Islands, Guam, and Micronesia.




                                 Page 1
                                                      April 1, 2004 – September 30, 2004




                                    AUDITS
PROGRAM INTEGRITY AUDITS

      For the last several years, the OIG has conducted a series of program
integrity audits of selected LSC grantees. These audits assess compliance with
the regulatory requirement that grantees maintain objective integrity and
independence from organizations that engage in restricted activities, i.e.,
activities in which LSC grantees are not permitted to engage because they are
prohibited or restricted by the LSC Act, the LSC appropriations Act, and/or LSC
regulations. In order to maintain program integrity, grantees must be legally
separate from organizations engaged in restricted activities, may not transfer
LSC funds to such an organization or use LSC funds to subsidize its restricted
activities, and must maintain physical and financial separation from the
organization.


      In the preceding reporting period, the OIG issued an audit report to
California Rural Legal Assistance (CRLA) in which the OIG concluded that CRLA
had not maintained objective integrity and independence from an organization
engaged in restricted activities.   In the preceding period, the OIG referred the
matter to LSC management for follow-up to ensure that the grantee
implemented corrective action sufficient to bring it into compliance.


      In the current reporting period, the OIG decided to close the audit and
accept CRLA’s proposed corrective action as meeting the intent of the OIG’s
recommendations. One of the major reasons the OIG closed the audit is that
we have concerns with regard to aspects of LSC’s guidance implementing the
program integrity and other requirements, making it difficult for the grantees
to ensure that they are in compliance with LSC’s requirements and for the OIG
to assess compliance.      Those concerns are more appropriately dealt with
outside of the grantee audit process.     Accordingly, the OIG will send to LSC
management an advisory memorandum, detailing the OIG’s concerns and
recommending that management provide additional specific guidance to its
grantees in the following areas: 1) the permissible level of shared senior staff
with organizations engaged in restricted activities and whether the volunteer


-                                     Page 2
                                                       April 1, 2004 – September 30, 2004



status of shared staff is relevant to the program integrity analysis; 2) the
permissible scope of co-counseling arrangements with organizations engaged
in restricted activities; 3) the allowable level of subsidization of such
organizations, if any; and 4) the scope of the requirement that grantees identify
their clients and prepare written statements of fact.              We will discuss
management’s actions in our next report.


       Program integrity audits of two other grantees are in process: Volunteer
Lawyers Project of the Boston Bar Association and Southern Minnesota Regional
Legal Services. Some of the concerns raised in connection with the CRLA audit
process are present in these audits as well, and completion of the audits was
delayed in part because of the OIG’s trying to resolve the CRLA audit with LSC
management.      The audits should be completed during the next reporting
period.


PRIVATE ATTORNEY INVOLVEMENT (PAI) AUDITS

       The OIG is conducting a series of audits to evaluate the PAI program and
grantee compliance with LSC Regulation Part 1614.           This regulation requires
grantees to spend an amount equal to at least 12.5 percent of their basic field
grants to involve private attorneys in providing legal services to LSC-eligible
clients.   PAI activities include direct representations and co-counseling with
staff attorneys as well as community legal education and private attorney
participation in providing brief legal services through hotlines and pro se
clinics.


       During this reporting period, the OIG issued final reports of PAI audits for
Central California Legal Services, Legal Services of Northern California and
Western Michigan Legal Services. While the OIG identified several issues for
corrective action, none rose to the level of significance



CORPORATE AUDIT

       The independent public accountant (IPA) under contract with the OIG
issued the audit report for the Fiscal Year 2003 financial statement audit of the


-                                     Page 3
                                                     April 1, 2004 – September 30, 2004



Corporation on April 26, 2004. The IPA rendered an unqualified (clean) opinion
on the financial statements and reported that they identified no instances of
noncompliance or material weaknesses in internal controls over LSC’s financial
reporting.


      The IPA is scheduled to begin field work for the Corporation’s Fiscal Year
2004 audit on November 1, 2004.


AUDIT SERVICE REVIEWS

      The OIG is responsible for supervision and oversight of the IPAs who are
selected by the grantees to perform annual audits.       Pursuant to the grant
conditions, these reviews determine whether these IPAs adequately tested
compliance with fourteen specific LSC regulations.


      During this period, the OIG completed two ASR’s, transmitting the results
to the grantees and their respective IPAs.




-                                     Page 4
                                                  April 1, 2004 – September 30, 2004




                                  AUDIT REPORTS
Open at beginning of reporting period                                2
Issued during reporting period                                       6
Closed during reporting period                                       7
Open at end of reporting period                                      1




                    RECOMMENDATIONS TO LSC GRANTEES
Pending at beginning of reporting period                              3
Reported during this period                                         10
Closed during this reporting period                                   8
Pending at end of reporting period                                    5




                  RECOMMENDATIONS TO LSC MANAGEMENT
Pending at beginning of reporting period                             0
Reporting during this period                                         0
Closed during report period                                          0
Pending at end of reporting period                                   0




-                                     Page 5
                                                                                          April 1, 2004 – September 30, 2004



                                         EVALUATION PROJECT


EVALUATION OF LEGAL SERVICES MAPPING

          The OIG continued to evaluate the usefulness of legal services mapping
as part of the OIG mission to promote efficiency and effectiveness in the
activities and operations of LSC and its grantees. This concept evaluation is
determining the value of mapping in supporting a wide range of stakeholder
interests, including:

    Access to legal services for low-income persons;

    Grantee management information to strengthen planning, resource
     allocation (including outreach efforts and offices and staff locations), and
     promotion; and
    LSC management functions including strategic planning,                                                                grantee
     performance evaluation, and national program promotion.

          The 2000 U.S. Census documented the growing numbers of low-income
Americans who qualify for federally funded legal services. The OIG map on the
next page visually reveals the relative shift of poverty from the center of the
country toward the coasts from the 1990 to 2000 Census. This growth/loss
pattern is not readily apparent by looking at the data in a table. The OIG
developed the map to show the dramatic changes in the proportion of LSC
funding by state based on the 2000 Census reallocations1. North Dakota shows
the greatest decrease in poverty, a decline of over 21 percent, with Iowa a close
second. Conversely, Guam gained 74 percent and Nevada gained over 62
percent in their relative share of poverty in the ten-year period. Of the nation’s
total increase of two million people in poverty, California accounted for more
than half.




1
 Historically, LSC’s appropriation distributes basic field funding by the relative number of individuals in poverty per geographic area
as counted by the last decennial census. The fiscal year 2003 and 2004 LSC appropriations included supplemental funding
earmarked to partially supplement states receiving less basic field funding due to relative losses in the 2000 Census poverty
numbers.



-                                                              Page 6
                                                      April 1, 2004 – September 30, 2004




         The map below displays the ratio of LSC documented closed cases to
persons in poverty by state in 2000. The ratio maps offer a measure of the
strategically important access to legal services. Access to legal services in this
instance is measured by the number of LSC documented cases closed per 1,000
persons        in   poverty      in    a
state.    Using this measure,
the lowest access to legal
services in the continental
U.S. in 2000 was in Nevada
where less than six “LSC
cases” per 1,000 income-
eligible were closed.            This
was due in part to Nevada
having the greatest growth
rate      in        the     poverty
population          of    over        62
percent from 1990 to 2000,


-                                          Page 7
                                                       April 1, 2004 – September 30, 2004



yet receiving federal funding based on the 1990 Census until January 2003. At
the high end, Iowa closed over 60 cases per 1,000 persons in poverty, partially
a result of a reduction by over 20 percent of its relative share of the poverty
population while maintaining 1990 funding allocations.        For comparison, the
“LSC cases” closed per person in poverty were 10 times greater in Iowa than in
Nevada in 2000.


      Access to legal services is the product of a myriad of factors such as
distribution and density of the poverty population, its urban or rural nature,
resource availability, delivery strategy, private bar involvement, degree of
extended service, legal need and other circumstances. However, the maps
provide state planners, grantees, and LSC program management a basis of
comparison of the degree of access to “LSC documented Closed Cases” legal
services throughout the United States.

      Nationwide maps provide LSC program management, planning bodies
and grantees with limited visual comparisons. Such comparisons can provide a
perspective on legal services in one state in relation to other states, and provide
a national perspective to the legal services program.               Although state
comparative analysis must take into account the context of the individual
situations, maps of this nature can assist in delivery and access performance
base-lining, spotting year-on-year trends and highlighting areas of success or
challenge. States or grantees identified as extremes can be used as models or
targeted for special attention.

      At the local level, legal services managers only have Census poverty
tables of county totals for their planning efforts. Through the project’s maps,
participating grantees are able to analyze trends in specific income-eligible
populations by zip code, community and even the street block level. In addition,
the project compares legal services provided to the distribution of the income-
eligible persons. For the first time maps such as the one on the next page
provide a detailed picture of low-income persons’ access to legal service. These
maps help managers to easily identify geographic disparities in the availability
of legal services and to target resources and fundraising efforts accordingly.




-                                     Page 8
                                                                                       April 1, 2004 – September 30, 2004




    The urban area map displays the Legal Aid Foundation of Los Angeles service area with over 1.2 million income-
    eligible persons by Census tract with an overlay of LSC defined closed cases in blue. Note the correlation between
    locations and the income-eligible population.


           The on-going phase of the evaluation seeks to determine if legal services
mapping is effective in the nation’s most complex poverty environments,
defines a small core set of maps that would be universally applicable in any
legal services area, and identifies methods to reduce costs for future legal
services mapping by LSC and its grantees. Work during the reporting period
included active participation of LSC’s grantees in Southern California, Montana
and Georgia.



URBAN MAPPING

           In Southern California, the OIG is testing mapping with five grantees
whose service areas include roughly 4 million income-eligible persons in mostly
urban poverty. Robert Cohen, Director of the Legal Aid Society of Orange
County (LASOC), calls mapping a “powerful planning and reporting tool that
provides insights that would otherwise be very difficult to obtain.” The Southern
California grantees’ mapping interests include showing services provided by
specific funding sources, so that funders can see the breadth and importance of
their financial support to legal aid and access to justice; and, identifying the


-                                                            Page 9
                                                           April 1, 2004 – September 30, 2004



distribution of non-English speaking households that present a language
barrier to effective legal service delivery.


                                        With the assistance of LASOC, the project
                                        is able to bring in other stakeholders
                                        including the Superior Court of Orange
                                        County     and     the       Santa   Ana     Police
                                        Department.        With data from the two
                                        organizations, the OIG is creating a larger
                                        picture   of    the     legal   service    universe
                                        creating maps of the Court’s low-income
                                        cases     and     the       police   department’s
domestic violence incidents and comparing each to related services provided by
LASOC. Seen in the picture is LSC’s Inspector General, Kirt West (right),
presenting the Chief Executive Officer of the Superior Court of Orange County,
Alan Slater (left), with a map showing approximately 25,000 thousand services
provided by the jointly developed Court and LASOC legal services kiosks.


RURAL MAPPING

      In Montana, which has one of the nation’s most sparsely distributed
poverty populations, Montana Legal Services Association (MLSA) used maps to
help display the geographic and operational challenges of rural legal services
delivery to the LSC Board at its September meeting. MLSA will use the maps as
part of their planning processes this fall.       Working in coordination with the
State Bar of Montana, the project was able to produce a map comparing the
location of practicing private attorneys in the state with pro bono services to
better match resources with need.


      In Georgia, the OIG is performing an update of earlier work incorporating
the 2000 Census poverty data and more recent grantee case data. The update
includes needed technical improvements to map rural service delivery. The
project is assessing maps to help analyze grantees’ areas of particular interests,
including   identifying   persistent   poverty    areas       and    low-income      senior
populations.


-                                       Page 10
                                                    April 1, 2004 – September 30, 2004



      The project’s biggest success has been in proving the value of maps in
planning legal services delivery and in earning support from the participating
LSC grantees – all are interested in adopting mapping to support management
objectives and advocacy. By the end of the next reporting period, the OIG plans
to complete the second phase summary report and transfer the project to LSC
Management. The report will recommend that LSC further develop legal services
mapping for program performance evaluation and provide wider availability of
mapping to its grantees.


      The OIG thanks the many active participants of the Evaluation of Mapping
project. Without their hard work and support, the success of this project would
not have been possible.




-                                   Page 11
                                                        April 1, 2004 – September 30, 2004




                      INVESTIGATIVE ACTIVITIES

      The OIG closed one investigative case during the reporting period. The
case involved allegations of corruption and other improper conduct in
connection with the 2001 grant competition for an LSC service area in Virginia.
The OIG found the evidence insufficient to support any of the allegations, and
the matter was closed.


      The OIG maintained a Hotline for the reporting of illegal or improper
activities by LSC grantee or corporate staff.       Complaints and allegations are
received via telephone, letter and e-mail. During the reporting period, the OIG
received 21 hotline contacts. Of these 21 contacts, four required follow-up and
five were notifications that thefts had occurred.


      INVESTIGATIVE CASES


            Open at beginning of period                                   1
            Open during the period                                        0
            Closed during period                                          1
            Open at the end of the period                                 0
            Recommendations for Corrective Action                         0


      PROSECUTORIAL ACTIVITIES


            Referred this period                                          0
            Declined prior and this period                                0
            Pending                                                       0
            Convictions                                                   0




-                                     Page 12
                                                        April 1, 2004 – September 30, 2004




                                  LEGAL REVIEW



      The OIG reviewed and commented on regulatory provisions affecting LSC
and the OIG. Comments were provided on proposed revisions to 45 CFR
Part 1611, LSC’s regulation governing financial eligibility of clients.




-                                     Page 13
                                                                 April 1, 2004 – September 30, 2004




                                                   TABLE I

                          Audit Reports Issued with Questioned Costs
                           for the Period Ending September 30, 2004



                                                       NUMBER    QUESTIONED       UNSUPPORTED
                                                       REPORTS      COSTS             COSTS


    A.      For which no management decision                 0        $0                $0
             has been made by the commence-
             ment of the reporting period.

    B.      Reports issued during the reporting              0        $0                $0
             period

            Subtotals (A + B)                                0        $0                $0
    LESS:


    C.      For which a management decision                  0        $0                $0
             was made during the reporting
             period:

                                                             0        $0                $0
            (i) dollar value of recommendations
                that were agreed to by
                management

            (ii) dollar value of recommendations             0        $0                $0
                that were not agreed to by
                management

    D.      For which no management decision                 0        $0                $0
             had been made by the end of the
             reporting period

            Reports for which no management                  0        $0                $0
            decision had been made within six
            months of issuance




-                                                  Page 14
                                                                       April 1, 2004 – September 30, 2004



                                                  TABLE II

                   Audit Reports Issued with Funds to be Put to Better Use
                           for the Period Ending September 30, 2004


                                                             NUMBER                DOLLAR
                                                             REPORTS                VALUE


    A.      For which no management decision                   0                      $0
             has been made by the commence-
             ment of the reporting period.

    B.      Reports issued during the reporting                0                      $0
             period

            Subtotals (A + B)                                  0                      $0

    LESS:

    C.      For which a management decision                    0                      $0
             was made during the reporting
             period:

            (I) dollar value of recommendations                0                      $0
                that were agreed to by
                management
            (ii) dollar value of recommendations
                                                               0                      $0
                that were not agreed to by
                management

    D.      For which no management decision                   0                      $0
             had been made by the end of the
             reporting period

            Reports for which no management                    0                      $0
            decision had been made within six
            months of issuance




-                                                  Page 15
                                                           April 1, 2004 – September 30, 2004



                                       TABLE III

                         Index to Reporting Requirements
                               of the Inspector General



      IG ACT***                        REPORTING REQUIREMENT                             PAGE
     REFERENCE
                                                                                          13
    Section 4(a)(2)     Review of legislation and regulations

    Section 5(a)(1)     Significant problems, abuses, and deficiencies                   None

    Section 5(a)(2)     Recommendations with respect to significant problems,            None
                        abuses, and deficiencies

    Section 5(a)(3)     Prior significant recommendations on which corrective
                                                                                         None
                        action has not been completed

    Section 5(a)(4)     Matters referred to prosecutive authorities                      None

    Section 5(a)(5)     Summary of instances where information was refused               None

    Section 5(a)(6)     List of audit reports by subject matter, showing dollar          None
                        value of questioned costs (including a separate category
                        for the dollar value of unsupported costs) and funds to be
                        put to better use

    Section 5(a)(7)     Summary of each particularly significant report                    2

    Section 5(a)(8)     Statistical table showing number of audit reports and             14
                        dollar value of questioned costs

    Section 5(a)(9)     Statistical table showing number of reports and dollar            15
                        value of recommendations that funds be put to better use

    Section 5(a)(10)    Summary of each audit issued before this reporting               None
                        period for which no management decision was made by
                        the end of the reporting period

    Section 5(a)(11)    Significant revised management decisions                         None

    Section 5(a)(12)    Significant management decisions with which the                  None
                        Inspector General disagrees


***Refers to sections in the Inspector General Act of 1978, as amended




-                                           Page 16
    Office of Inspector General
    Legal Services Corporation
    3333 K Street, NW, 3rd Floor
      Washington, DC 20007



-
